             Audit Report




Child Support and the Supplemental
     Security Income Program




       A-01-12-11219 | July 2013
MEMORANDUM


Date:      July 25, 2013                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Child Support and the Supplemental Security Income Program (A-01-12-11219)

           The attached final report presents the results of our audit. Our objective was to demonstrate the
           potential monetary impact if legislation is enacted that allows the Social Security Administration
           to (1) require that all parents applying for or receiving Supplemental Security Income (SSI)
           payments on behalf of their children file for child support, if appropriate, and (2) obtain and
           match State child support data with the SSI rolls to identify unreported child support payments
           that may impact SSI payments.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment

           cc:
           Kathleen Sebelius, Secretary of the Department of Health and Human Services
Child Support and the Supplemental Security Income
Program
A-01-12-11219
July 2013                                                                 Office of Audit Report Summary

Objective                                   Our Findings

To demonstrate the potential monetary       SSA could save approximately $151.2 million, annually, if the
impact if legislation is enacted that       number of individuals receiving and/or reporting child support
allows the Social Security                  increases by 100,000. Alternatively, SSA could save approximately
Administration (SSA) to (1) require         $302.4 million, annually, if the number of recipients receiving
that all parents applying for or            and/or reporting child support increases by 200,000. These dollar
receiving Supplemental Security             figures are conservative and are greatly reduced from figures we
Income (SSI) payments on behalf of          calculated assuming the results from 1999 SSA and Government
their children file for child support, if   Accountability Office studies are similar today.
appropriate, and (2) obtain and match
State child support data with the SSI       Requiring cooperation with child support enforcement agencies
rolls to identify unreported child          would be consistent with the philosophy that the SSI program
support payments that may impact SSI        should serve as a program of last resort. Such a requirement could
payments.                                   increase savings to the SSI program as well as improve the financial
                                            status of children receiving SSI.
Background
                                            Improving access to child support data would enhance the integrity
SSI is intended to be a program of last     of the SSI program by reducing overpayments to children who are
resort. Therefore, it is important to       receiving child support and help SSA identify unreported child
assess the other benefit programs for       support payments.
which an individual is eligible based
on his/her own activities or based on       Our Recommendation
indirect qualification through family
circumstances. A recipient is not           We recommend that, in consultation with the Secretary of the
eligible for SSI if he/she does not         Department of Health and Human Services (HHS), SSA consider
apply for all other benefits for which      legislative changes that would (1) require that all parents applying
he/she may be eligible; including           for or receiving SSI payments on behalf of their children under age
veterans' compensation, pensions,           18 file for child support, if appropriate, and (2) authorize the
Social Security benefits, and               Secretary of HHS to match State child support data with the SSI
unemployment insurance benefits.            rolls to identify unreported or underreported child support payments
Conversely, children who receive SSI        which may impact SSI payments.
are not required to file for child
                                            SSA agreed with our recommendation.
support benefits, even though filing for
child support benefits is a condition of
eligibility for income assistance
programs such as Temporary
Assistance for Needy Families,
Medicaid, and Food Stamps.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
     Child Support Enforcement .......................................................................................................2
     Obtaining Child Support Data ...................................................................................................3
     Prior Reports and Studies...........................................................................................................3
Results of Review ............................................................................................................................4
     Potential Increase in Children Receiving Child Support ...........................................................5
     Legal Issues ................................................................................................................................6
Conclusions ......................................................................................................................................6
Recommendation .............................................................................................................................6
Agency Comment ............................................................................................................................7
Appendix A – Social Security Act Section 454A ....................................................................... A-1
Appendix B – Scope and Methodology ..................................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Child Support and the Supplemental Security Income Program (A-01-12-11219)
ABBREVIATIONS
CSE                 Child Support Enforcement

FY                  Fiscal Year

GAO                 Government Accountability Office

HHS                 Department of Health and Human Services

OCSE                Office of Child Support Enforcement

POMS                Program Operations Manual System

Pub. L. No.         Public Law Number

SSA                 Social Security Administration

SSI                 Supplemental Security Income

TANF                Temporary Assistance for Needy Families

U.S.C.              United States Code




Child Support and the Supplemental Security Income Program (A-01-12-11219)
OBJECTIVE
Our objective was to demonstrate the potential monetary impact if legislation is enacted that
allows the Social Security Administration (SSA) to (1) require that all parents applying for or
receiving Supplemental Security Income (SSI) payments on behalf of their children file for child
support, if appropriate, and (2) obtain and match State child support data with the SSI rolls to
identify unreported child support payments that may impact SSI payments.

BACKGROUND
SSI is intended to be a program of last resort. Therefore, it is important to determine the other
benefit programs for which an individual is eligible based on his/her own activities or based on
indirect qualification through family circumstances. 1 A recipient is not eligible for SSI if he/she
does not apply for all other benefits for which he/she may be eligible, including veterans'
compensation; pensions; workers' compensation payments; Social Security Old-Age, Survivors
or Disability Insurance benefits; and unemployment insurance benefits. Conversely, children
who receive SSI are not required to file for child support benefits, even though filing for child
support benefits is a condition of eligibility for such income assistance programs as Temporary
Assistance for Needy Families (TANF), Medicaid, and Food Stamps. 2

When determining a child’s monthly SSI payment, program rules under the Social Security Act
exclude one-third of a child support payment received from countable income. 3 The remaining
child support payment is subject to the $20 general income exclusion. 4 The balance reduces the
child’s monthly SSI payment dollar for dollar. See Figure 1 for an example of how child support
payments affect SSI payments.




1
    SSA, POMS, SI 00510.001 A, effective August 5, 2010.
2
 TANF, Medicaid, and Food Stamp program applicants and recipients may not be required to cooperate with Child
Support Enforcement (CSE) if they claim to have good cause for refusing to do so and the State agencies
administering these programs determine the circumstances claimed make cooperation not in the best interests of the
child.
3
    Social Security Act § 1612(b)(9), 42 U.S.C. § 1382a(b)(9).
4
    SSA, POMS, SI 00830.050 C2, effective September 27, 2010.



Child Support and the Supplemental Security Income Program (A-01-12-11219)                                           1
                          Figure 1: Computation for Child Support Payments

Monthly Federal SSI benefit rate for 2013 5                                            $710.00

Average child support payment for 2011 6                        $219.00

Minus 1/3 of the child support payment                          ($73.00)

Minus the $20 general income exclusion                          ($20.00)

Total countable income ($219-$73-$20)                                                  $126.00

SSI benefit ($710-$126)                                                                $584.00

Total income available to the child ($584+$219)                                        $803.00

           NOTE: This example assumes the child has no other income and does not include a state
           supplemental payment.


Child Support Enforcement
Congress created the CSE program in 1975 to reduce welfare spending and help single parent
families achieve or maintain economic self-sufficiency. 7 At the Federal level, the Office of
Child Support Enforcement (OCSE) within the Department of Health and Human Services
(HHS) has oversight responsibility of the program. All States and territories run a CSE program,
usually in the human services department, department of revenue, or State Attorney General’s
office. CSE’s mission is to increase the reliability of child support paid by parents when they
live apart from their children by

•     locating parents;

•     establishing legal fatherhood (paternity);

•     establishing and enforcing fair support orders;

•     increasing health care coverage for children; and




5
    SSA, POMS, SI 02001.020 C8, effective October 16, 2012.
6
    SSA, SSI Annual Statistical Report, 2011; released September 2012, pg. 50.
7
 Social Services Amendments of 1974, Pub. L. No. 93-647, § 101(a), 88 Stat. 2337, 2351 (codified at 42 U.S.C.
§§ 651 et seq.)



Child Support and the Supplemental Security Income Program (A-01-12-11219)                                      2
•      removing barriers to payment, such as referring parents to employment services, supporting
       healthy co-parenting relationships, supporting responsible fatherhood, and helping prevent
       and reduce family violence.

According to OCSE, in Fiscal Year (FY) 2011, there were 15.8 million cases (for 17.3 million
children) in the CSE program, and $27.3 billion was collected. 8

Obtaining Child Support Data
When parents who are receiving SSI payments also receive child support for their children, they
are required to report the child support to SSA for benefit determinations; 9 however, not all
parents do so. The Social Security Act prohibits OCSE from providing data to SSA to identify
SSI recipients who do not report child support income to the Agency. 10

While the Social Security Act requires that SSA provide Social Security numbers, addresses, and
benefit data to OCSE, it does not provide for the disclosure of child support payment records to
SSA. Both HHS and SSA OIG legal counsel confirmed that Title IV of the Social Security Act
prohibits disclosure of payment records to SSA. To perform such a match, Title IV of the Social
Security Act would need to be amended to allow SSA to use this information. See Appendix A
for section 454A of the Social Security Act.

Prior Reports and Studies
Studies indicate that many custodial parents of children on SSI do not pursue child support from
the absent parent or do not report the child support payments they receive. For example, an SSA
Office of Policy Brief refers to a 1999 SSA study that found, of about 1,500 single-parent
households, 47 percent of the custodial parents had not pursued child support, and approximately
two-thirds of these households might have received support had they pursued it. 11

A 1999 Government Accountability Office (GAO) study found that in three of the four States
with the largest number of children receiving SSI, about two-thirds of parents did not report child
support payments to SSA. 12 The total amount of unreported child support collected by these SSI
children was almost $12 million. As a result, GAO estimated SSA overpaid those children
$7.7 million in SSI payments in 1 year. GAO recommended that Congress amend the Social
Security Act to require that parents cooperate with applicable CSE services and SSA seek ways


8
    HHS, OCSE, FY 2011 Preliminary Report, October 1, 2012.
9
    SSA, POMS, SI 02301.005 B2, effective November 5, 2007.
10
     Social Security Act § 454A, 42 U.S.C. § 654a.
11
  SSA, Office of Policy, Policy Brief No. 2004-02, Child Support Payments and the SSI Program, February 2004,
pg. 5.
12
  GAO, Supplemental Security Income: Increase Receipt and Reporting of Child Support Could Reduce Payments
(GAO/HEHS-99-11), January 1999, pgs. 9-10.



Child Support and the Supplemental Security Income Program (A-01-12-11219)                                      3
of obtaining data on CSE collections. SSA agreed with these recommendations but did not
implement either of the recommendations.

We acknowledge the data in these studies were about 14 years old; however, we were unable to
obtain more recent data. We found no indication that GAO followed up on its report or that SSA
performed any further studies. Also, SSA was only able to locate and provide to us the draft
report for its 1999 study; not a final report. 13

For more current information on SSI recipients, we analyzed data in SSA’s SSI Annual
Statistical Report, 2011. 14 (See Appendix B for additional information about our scope and
methodology.)

RESULTS OF REVIEW
SSA could save approximately $151.2 million, annually, if the number of individuals receiving
and/or reporting child support increases by 100,000. Alternatively, SSA could save
approximately $302.4 million, annually, if the number of recipients receiving and/or reporting
child support increases by 200,000. These figures are conservative and are greatly reduced from
figures we calculated assuming the results from the 1999 SSA and GAO studies are similar
today.

According to SSA, as of December 2011, about 1.3 million children under age 18 were receiving
SSI. The Agency reported 857,569, 67 percent, of these children lived in a single-parent
household; 15 however, only 175,888 children (13.8 percent) reported receiving child support.
This is up from 89,950 (10.6 percent) in December 2000. As of December 2011, the average
child support payment was $219 per month compared to $182 in December 2000. 16

Table 1 and the information that follows show how we calculated potential savings. To calculate
these potential savings, we used the average child support payment amount of $219 per month,
which would reduce a monthly SSI payment by $126 because one-third of the child support plus
$20 is excluded from countable income (see Figure 1).




13
  SSA, Quality Assurance and Performance Assessment, Interim Draft Report on the Child Support Enforcement
Study, Supplemental Security Income (SSI) and Child Support Findings and Preliminary National Study Findings,
October 14, 1998.
14
     SSA, SSI Annual Statistical Report, 2011; released September 2012.
15
  Additionally, 264,845 children live in a two-parent household. Some of these children may also be eligible for
child support payments because one parent may be a step-parent and the absent parent could owe support.
16
  SSA, SSI Annual Statistical Report, 2011; released September 2012, pg. 50 for 2011 figures, and SSA, Office of
Policy, Policy Brief No. 2004-002, Child Support Payments and the SSI Program, February 2004, pg. 5 for
2000 figures.



Child Support and the Supplemental Security Income Program (A-01-12-11219)                                         4
           Table 1: Possible Savings if Children Receiving Child Support Increased
                                             Monthly              Additional                  Additional
      Number of
                                            Savings to          Monthly Savings            Annual Savings
      Children on
                          Amount of           the SSI          Based on Potential              Based on
     SSI Reporting
                             SSI          Program Due           Increase in SSI           Potential Increase
       Receipt of
                          Reduction          to Child              Children                in SSI Children
     Child Support
                                             Support            Receiving Child            Receiving Child
        Income
                                             Income                 Support                    Support
       175,888 17        $126              $22,161,888                N/A                        N/A
       275,888*          $126              $34,761,888            $12,600,000                $151,200,000
       375,888**         $126              $47,361,888            $25,200,000                $302,400,000
       * increase by 100,000
       ** increase by 200,000

Potential Increase in Children Receiving Child Support
Although Table 1 shows possible savings if the number of children with child support income
increases by 100,000 and 200,000, we estimate that SSA could see a substantially higher number
of children 18 receiving child support based on the following factors.

•    We estimated that about 213,000 children may have been eligible for child support payments
     had their parent pursued it. 19 This number is based on data published in a 1999 SSA study—
     assuming these statistics hold true today. In this study, SSA reported that 47 percent of
     custodial parents had not pursued child support, and two-thirds of these households may have
     received child support had they pursued it.

•    We estimated that about 374,000 children (in addition to the 213,000 discussed above) may
     have had unidentified child support payments. 20 This number is based on data published by
     GAO in a 1999 report and assumes these statistics held true today. In that report, GAO



17
  According to SSA, 175,888 children receiving SSI also reported child support income; see SSA, SSI Annual
Statistical Report, 2011; released September 2012, pg. 50.
18
  We estimate that SSA could see approximately 587,000 more children receiving child support based on the
information in the two bullets that follow this paragraph [213,000 + 374,000 = 587,000].
19
  We calculated this by subtracting the number of SSI children already reporting receipt of child support (175,888)
from the number of children in one parent households (857,569), multiplying this by 47 percent and then
multiplying this by two-thirds (based on the SSA study referred to in Office of Policy Brief No. 2004-02, Child
Support Payments and the SSI Program, February 2004, pg. 5) [(857,569 – 175,888) * 0.47 * 2/3 =213,593].
20
  We calculated this using the 1999 GAO report—Supplemental Security Income: Increase Receipt and Reporting
of Child Support Could Reduce Payments (GAO/HEHS-99-11), January 1999— that found that 32 percent of
children with child support posted to their record is 175,888. Therefore, we determined that 68 percent (without
child support posted to their SSA records) would be 373,762 [(175,888 * 0.68)/0.32 = 373,762].



Child Support and the Supplemental Security Income Program (A-01-12-11219)                                            5
     stated that 68 percent of SSI children receiving child support did not have the child support
     posted to their SSI record.

Legal Issues
Title IV of the Social Security Act would need to be amended for SSA to obtain child support
payment information. 21 HHS oversees Title IV of the Social Security Act, and the purpose of
Part D of the Title is, in part, to enforce child support obligations owed by non-custodial parents
to their children. States maintain child support payment information in their automated child
support systems, over which HHS exercises oversight. The law provides for the disclosure of
information from the State database to the extent necessary to carry out the IV-D program and to
State agencies administering programs under Titles IV, XIX, and XXI of the Social Security
Act—not Title XVI, which encompasses SSI. Therefore, Title IV would need to be amended to
provide for the use of this information by SSA. See Appendix A for section 454A of the Social
Security Act.

CONCLUSIONS
Requiring cooperation with CSE agencies would be consistent with the philosophy that the SSI
program should serve as a program of last resort. Such a requirement could increase savings to
the SSI program but also improve the financial status of children receiving SSI. Improving
access to child support data would enhance the integrity of the SSI program by reducing
overpayments to children receiving child support and help SSA identify unreported child support
payments.

SSA may be able to reduce SSI payments by approximately $151.2 million, annually, if the
number of SSI recipients receiving and/or reporting child support income increased by 100,000.
Alternatively, if the number of recipients receiving and/or reporting child support income
increased by 200,000, SSA could save approximately $302.4 million, annually.

RECOMMENDATION
We recommend that, in consultation with the Secretary of HHS, SSA consider legislative
changes that would (1) require that all parents applying for or receiving SSI payments on behalf
of their children under age 18 file for child support, if appropriate, and (2) authorize the
Secretary of HHS to match State child support data with the SSI rolls to identify unreported or
underreported child support payments which may impact SSI payments.




21
  The disclosure of child support information is currently limited by § 454A of the Social Security Act, 42 U.S.C.
§ 654a.



Child Support and the Supplemental Security Income Program (A-01-12-11219)                                           6
AGENCY COMMENT
SSA agreed with our recommendation (see Appendix C).




Child Support and the Supplemental Security Income Program (A-01-12-11219)   7
                                      APPENDICES




Child Support and the Supplemental Security Income Program (A-01-12-11219)
Appendix A – S OCIAL SECURITY ACT SECTION 454A
Automated Data Processing
Sec. 454A. [42 U.S.C. 654a] (a) In General.—In order for a State to meet the requirements of
this section, the State agency administering the State program under this part shall have in
operation a single statewide automated data processing and information retrieval system which
has the capability to perform the tasks specified in this section with the frequency and in the
manner required by or under this part.

(b) Program Management.—The automated system required by this section shall perform such
functions as the Secretary may specify relating to management of the State program under this
part, including—

(1) controlling and accounting for use of Federal, State, and local funds in carrying out the
program; and

(2) maintaining the data necessary to meet Federal reporting requirements under this part on a
timely basis.

(c) Calculation of Performance Indicators.—In order to enable the Secretary to determine the
incentive payments and penalty adjustments required by sections 452(g) and 458, the State
agency shall—

(1) use the automated system—

(A) to maintain the requisite data on State performance with respect to paternity establishment
and child support enforcement in the State; and

(B) to calculate the paternity establishment percentage for the State for each fiscal year; and

(2) have in place systems controls to ensure the completeness and reliability of, and ready access
to, the data described in paragraph (1)(A), and the accuracy of the calculations described in
paragraph (1)(B).

(d) Information Integrity and Security.—The State agency shall have in effect safeguards on the
integrity, accuracy, and completeness of, access to, and use of data in the automated system
required by this section, which shall include the following (in addition to such other safeguards
as the Secretary may specify in regulations):

(1) Policies restricting access.—Written policies concerning access to data by State agency
personnel, and sharing of data with other persons, which—

(A) permit access to and use of data only to the extent necessary to carry out the State program
under this part; and



Child Support and the Supplemental Security Income Program (A-01-12-11219)                        A-1
(B) specify the data which may be used for particular program purposes, and the personnel
permitted access to such data.

(2) Systems controls.—Systems controls (such as passwords or blocking of fields) to ensure
strict adherence to the policies described in paragraph (1).

(3) Monitoring of access.—Routine monitoring of access to and use of the automated system,
through methods such as audit trails and feedback mechanisms, to guard against and promptly
identify unauthorized access or use.

(4) Training and information.—Procedures to ensure that all personnel (including State and local
agency staff and contractors) who may have access to or be required to use confidential program
data are informed of applicable requirements and penalties (including those in section 6103 of
the Internal Revenue Code of 1986), 1 and are adequately trained in security procedures.

(5) Penalties.—Administrative penalties (up to and including dismissal from employment) for
unauthorized access to, or disclosure or use of, confidential data.

(e) State Case Registry.—

(1) Contents.—The automated system required by this section shall include a registry (which
shall be known as the “State case registry”) that contains records with respect to—

(A) each case in which services are being provided by the State agency under the State plan
approved under this part; and

(B) each support order established or modified in the State on or after October 1, 1998.

(2) Linking of local registries.—The State case registry may be established by linking local case
registries of support orders through an automated information network, subject to this section.

(3) Use of standardized data elements.—Such records shall use standardized data elements for
both parents (such as names, social security numbers and other uniform identification numbers,
dates of birth, and case identification numbers), and contain such other information (such as on
case status) as the Secretary may require.

(4) Payment records.—Each case record in the State case registry with respect to which services
are being provided under the State plan approved under this part and with respect to which a
support order has been established shall include a record of—

(A) the amount of monthly (or other periodic) support owed under the order, and other amounts
(including arrearages, interest or late payment penalties, and fees) due or overdue under the
order;


1
    See Vol. II, Publ. L. No. 83-591, §6103.



Child Support and the Supplemental Security Income Program (A-01-12-11219)                     A-2
(B) any amount described in subparagraph (A) that has been collected;

(C) the distribution of such collected amounts;

(D) the birth date and, beginning not later than October 1, 1999, the social security number, of
any child for whom the order requires the provision of support; and

(E) the amount of any lien imposed with respect to the order pursuant to section 466(a)(4).

(5) Updating and monitoring.—The State agency operating the automated system required by
this section shall promptly establish and update, maintain, and regularly monitor, case records in
the State case registry with respect to which services are being provided under the State plan
approved under this part, on the basis of—

(A) information on administrative actions and administrative and judicial proceedings and orders
relating to paternity and support;

(B) information obtained from comparison with Federal, State, or local sources of information;

(C) information on support collections and distributions; and

(D) any other relevant information.

(f) Information Comparisons and Other Disclosures of Information.—The State shall use the
automated system required by this section to extract information from (at such times, and in such
standardized format or formats, as may be required by the Secretary), to share and compare
information with, and to receive information from, other data bases and information necessary to
enable the State agency (or the Secretary or other State or Federal agencies) to carry out this part,
subject to section 6103 of the Internal Revenue Code of 1986. 2 Such information comparison
activities shall include the following:

(1) Federal case registry of child support orders.—Furnishing to the Federal Case Registry of
Child Support Orders established under section 453(h) (and update as necessary, with
information including notice of expiration of orders) the minimum amount of information on
child support cases recorded in the State case registry that is necessary to operate the registry (as
specified by the Secretary in regulations).

(2) Federal parent locator service.—Exchanging information with the Federal Parent Locator
Service for the purposes specified in section 453.

(3) Temporary family assistance and medicaid agencies.—Exchanging information with State
agencies (of the State and of other States) administering programs funded under part A,
programs operated under a State plan approved under title XIX, and other programs designated


2
    See Vol. II, Pub. L. No. 83-591, §6103.



Child Support and the Supplemental Security Income Program (A-01-12-11219)                         A-3
by the Secretary, as necessary to perform State agency responsibilities under this part and under
such programs.

(4) Intrastate and interstate information comparisons.—Exchanging information with other
agencies of the State, agencies of other States, and interstate information networks, as necessary
and appropriate to carry out (or assist other States to carry out) the purposes of this part.

(5) Private industry councils receiving welfare–to–work grants.—Disclosing to a private industry
council (as defined in section 403(a)(5)(D)(ii)) to which funds are provided under section
403(a)(5) the names, addresses, telephone numbers, and identifying case number information in
the State program funded under part A, of noncustodial parents residing in the service delivery
area of the private industry council, for the purpose of identifying and contacting noncustodial
parents regarding participation in the program under section 403(a)(5).

(g) Collection and Distribution of Support Payments.—

(1) In general.—The State shall use the automated system required by this section, to the
maximum extent feasible, to assist and facilitate the collection and disbursement of support
payments through the State disbursement unit operated under section 454B, through the
performance of functions, including, at a minimum—

(A) transmission of orders and notices to employers (and other debtors) for the withholding of
income—

(i) within 2 business days after receipt of notice of, and the income source subject to, such
withholding from a court, another State, an employer, the Federal Parent Locator Service, or
another source recognized by the State; and

(ii) using uniform formats prescribed by the Secretary;

(B) ongoing monitoring to promptly identify failures to make timely payment of support; and

(C) automatic use of enforcement procedures (including procedures authorized pursuant to
section 466(c)) if payments are not timely made.

(2) Business day defined.—As used in paragraph (1), the term “business day” means a day on
which State offices are open for regular business.

(h) Expedited Administrative Procedures.—The automated system required by this section shall
be used, to the maximum extent feasible, to implement the expedited administrative procedures
required by section 466(c).




Child Support and the Supplemental Security Income Program (A-01-12-11219)                       A-4
Appendix B – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures as well as other applicable
    Federal regulations.

•   Reviewed January 1999 Government Accountability Office (GAO) report, Supplemental
    Security Income (SSI): Increase Receipt and Reporting of Child Support Could Reduce
    Payments (GAO/HEHS-99-11).

•   Reviewed February 2004 SSA Office of Policy Brief No. 2004-02, Child Support Payments
    and the SSI Program.

•   Reviewed SSA, Quality Assurance and Performance Assessment, Interim Draft Report on
    the Child Support Enforcement Study, October 14, 1998.

•   Reviewed Department of Health and Human Services (HHS), Office of Child Support
    Enforcement, Fiscal Year 2011 Preliminary Report, October 1, 2012.

•   Obtained information from HHS regarding legal issues with sharing child support data with
    SSA.

•   Analyzed data from SSA’s SSI Annual Statistical Report, 2011; released September 2012.

•   Estimated potential savings to the SSI program based on an increase in children receiving
    and/or reporting child support payments.

•   Provided our savings calculations to SSA’s Office of Research, Evaluation, & Statistics for
    review.

We conducted our review between December 2012 and April 2013 in Boston, Massachusetts.
The entity audited was the Office of Legislative Development and Operations under the Office of
the Deputy Commissioner of Legislation and Congressional Affairs. We conducted our review
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We did not test the reliability of the data in the GAO and SSA reports we
reviewed.




Child Support and the Supplemental Security Income Program (A-01-12-11219)                      B-1
           Appendix C – AGENCY COMMENTS




                                       SOCIAL SECURITY

MEMORANDUM


Date:      July 11, 2013                                                                Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Kate Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, "Child Support and the Supplemental Security
           Income Program" (A-01-12-11219)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Child Support and the Supplemental Security Income Program (A-01-12-11219)                       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“CHILD SUPPORT AND THE SUPPLEMENTAL SECURITY INCOME PROGRAM"
(A-01-12-11219)


Recommendation 1

Pursue legislative changes so the agency can (1) require that all parents applying for or receiving
SSI payments on behalf of their children under age 18 file for child support, if appropriate, and
(2) obtain and match State child support data with the SSI rolls to identify unreported or
underreported child support payment which may impact SSI payments.

Response

We agree. However, we cannot act alone on a recommendation to “pursue” legislative changes.
The decision to “pursue” legislative changes is an Administration decision that involves multiple
stakeholder input, including input from the Office of Management and Budget, other agencies,
and us. To make this recommendation actionable, please change “pursue” to “consider.”
Additionally, please add our suggested language clarifying the Secretary of Health and Human
Services (HHS) would need authorization to match the State child support data with the SSI
rolls. The revised recommendation would read:

       “In consultation with the Secretary of HHS, consider legislative changes that would
       (1) require that all parents applying for or receiving SSI payments on behalf of their
       children under age 18 file for child support, if appropriate, and (2) authorize the Secretary
       of HHS to match State child support data with the SSI rolls to identify unreported or
       underreported child support payments which may impact SSI payments.”




Child Support and the Supplemental Security Income Program (A-01-12-11219)                      C-2
Appendix D – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

David Mazzola, Audit Manager

Katie Greenwood, Senior Auditor

Brennan Kraje, Statistician




Child Support and the Supplemental Security Income Program (A-01-12-11219)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
